<html>
<title> - ZUNI INDIAN TRIBE WATER SETTLEMENT ACT</title>
<body><pre>[Senate Hearing 107-608]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-608
 
                 ZUNI INDIAN TRIBE WATER SETTLEMENT ACT
=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2743

TO APPROVE THE SETTLEMENT OF THE WATER RIGHTS CLAIMS OF THE ZUNI INDIAN 
                    TRIBE IN APACHE COUNTY, ARIZONA

                               __________

                             JULY 18, 2002
                             WASHINGTON, DC








                           U.S. GOVERNMENT PRINTING OFFICE
81-230                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. INOUYE, Hawaii, Chairman

            BEN NIGHTHORSE CAMPBELL, Colorado, Vice Chairman

KENT CONRAD, North Dakota            FRANK MURKOWSKI, Alaska
HARRY REID, Nevada                   JOHN McCAIN, Arizona,
DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
PAUL WELLSTONE, Minnesota            CRAIG THOMAS, Wyoming
BYRON L. DORGAN, North Dakota        ORRIN G. HATCH, Utah
TIM JOHNSON, South Dakota            JAMES M. INHOFE, Oklahoma
MARIA CANTWELL, Washington

        Patricia M. Zell, Majority Staff Director/Chief Counsel

         Paul Moorehead, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 2743, text of.................................................     3
Statements:
    Bowekaty, Malcolm B., Governor, Pueblo of Zuni, Zuni, NM.....    40
    Brown, David, Brown & Brown Law Offices, Pinetop, AZ.........    49
    Brown, Norman Ray, Lyman Water Company, St. Johns, AZ........    49
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      vice chairman, Committee on Indian Affairs.................     1
    Carter, Joe, vice chairman, Arizona Game & Fish Commission, 
      Safford, AZ................................................    44
    Eriacho, Wilfred, chairman, Zuni Water Rights Negotiation 
      Team.......................................................    43
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, chairman, 
      Committee on Indian Affairs................................     1
    Kyl, Hon. Jon, U.S. Senator from Arizona.....................    37
    Marx, Jane, attorney, Zuni Tribe.............................    40
    McCaleb, Neal, assistant secretary, Indian Affairs, 
      Department of the Interior.................................    37
    Odenkirk, James, assistant attorney general, Arizona Game & 
      Fish Commission............................................    44
    Padilla, Pablo, special assistant, Zuni Tribal Council.......    40
    Page, Oliver, hydrologist....................................    40
    Roberts, David C., manager, Water Rights and Contracts, Salt 
      River Project, Phoenix, AZ.................................    50
    Vicenti, Sr., Edison, head katchina leader...................    40
    Weldon, Jr., John B., Salmon, Lewis & Weldon, Phoenix, AZ....    50

                                Appendix

Prepared statements:
    Bowekaty, Malcolm B. (with attachments)......................    56
    Brown, Norman Ray (with attachments).........................    72
    Carter, Joe..................................................    83
    Kyl, Hon. Jon, U.S. Senator from Arizona.....................    55
    McCaleb, Neal................................................    86
    Roberts, David C.............................................    92
Additional material submitted for the record:
    Nelson, Michael C., presiding judge, Superior Court of 
      Arizona, Apache County (letter)............................    99


             ZUNI INDIAN TRIBE WATER RIGHTS SETTLEMENT ACT

                              ----------                              


                        THURSDAY, JULY 18, 2002


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to other business, at 10:10 
a.m. in room 485, Senate Russell Building, Hon. Daniel K. 
Inouye (chairman of the committee) presiding.
    Present: Senators Inouye and Campbell.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
      COLORADO, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Campbell [assuming Chair]. We'll now move to Senate 
Bill 2743, the Zuni Indian Water Rights Settlement Act of 2002. 
Maybe I'll just say a few words on it. The chairman is absent.
    Last session this committee and the Congress passed 
legislation to settle treaty-based water claims for other 
tribes--the Southern Utes--in our State. I'm very happy to say 
the President signed that in the year 2000. I think it really 
set a precedent for negotiated settlements on water among 
tribes, States, and the Federal Government.
    Like the Zuni claims, those tribes involved a number of 
people and a lot of discussions, but it was a good bill, and 
I'm interested in encouraging negotiated settlements and I look 
forward to hearing from Secretary McCaleb and our other 
witnesses this morning.
    Senator Inouye is now off the phone, so I will return the 
gavel, Senator.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. S. 2743, a bill to approve the settlement of 
the water rights claims of the Zuni Indian Tribe in Apache 
County, Arizona, and for other purposes, will now be taken up.
    On August 28, 1984, the United States established a 
reservation for Zuni Indian Tribe in Apache County, AZ, for the 
purpose of enabling the members of the Zuni Tribe to continue 
their centuries-old religious and sustenance practices. In 
order to sustain life on the reservation, there must be access 
to water. However, the water rights of all water users in the 
Little Colorado River Basin in Arizona have been the subject of 
an ongoing stream adjudication since 1979.
    In an effort to reach a final resolution of the various 
claims to water rights, the parties that will be affected by 
this bill entered into negotiations which have culminated in a 
settlement agreement. This legislation would ratify that 
settlement agreement, which provides not only for the 
resolution of the water rights, claims of the Zuni Indian 
Tribe, but also provides a means for assisting the tribe in 
acquiring surface water rights to provide the tribe's use of 
groundwater and provide for the restoration of wetlands located 
on the tribe's lands.
    [Text of S. 2743 follows:]
      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(s) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(s) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(s) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(s) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(s) NOT AVAILABLE IN TIFF FORMAT]

      
      

  
[GRAPHIC(s) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Our first witness, we have the most 
distinguished senator from the State of Arizona, the Honorable 
Jon Kyl.
    Senator Kyl, it is a pleasure to have you here, sir.

      STATEMENT OF HON. JON KYL, U.S. SENATOR FROM ARIZONA

    Senator Kyl. Thank you very much, Mr. Chairman and Senator 
Campbell. Mr. Chairman, you have just described the settlement. 
Let me put my statement in the record and really summarize it.
    You correctly noted that the purpose of this settlement is 
to provide a wetlands area for the Zuni to come to Arizona as 
part of their reservation there and engage in religious 
practices. They need water in order to recreate this wetlands 
area, and the settlement provides financial support for them to 
buy the water rights and settles any claims between the other 
water users in the area and the Zuni with respect to those 
water rights. It is agreed to by all of the parties, and I 
believe it will have the support of the U.S. Government, and 
therefore I would ask for the committee's favorable 
consideration.
    I have one statement in the nature of an apology to make. 
All of the parties are most anxious to move on this as quickly 
as possible. As a result, we put a great deal of pressure on 
your staff, Mr. Chairman, and they have been wonderful in 
responding very quickly to the need to have the hearing, to 
reviewing the legislation, which they didn't receive until just 
very recently, even though the general outlines were well 
known. But I want to thank you and thank your staff especially 
for getting on this immediately to try to help the parties move 
this forward just as quickly as possible. I appreciate that 
very, very much.
    [Prepared statement of Senator Kyl appears in appendix.]
    The Chairman. Senator Campbell and I are most grateful to 
you for acknowledging the great work of the staff. We have 
known that for a long time. In fact, it may interest you to 
know that this committee has had more hearings and has reported 
out more measures than any other committee in the Congress of 
the United States.
    Senator Kyl. Mr. Chairman, if I could indulge the 
committee, would it be permissible for me to sit at the dias to 
hear the testimony of other witnesses? I'd very much like to do 
that. This settlement means a lot to me, and I want to make 
sure that----
    The Chairman. You are always welcome, sir.
    Senator Kyl. All right. Thank you very much, Mr. Chairman.
    The Chairman. And without objection your full statement is 
made part of the record.
    Now may I call upon the Assistant Secretary for Indian 
Affairs, Department of the Interior, Neal McCaleb.

  STATEMENT OF HON. NEAL A. McCALEB, ASSISTANT SECRETARY FOR 
           INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR

    Mr. McCaleb. Thank you very much, Mr. Chairman, Senator 
Campbell. I very much appreciate the opportunity to appear 
before the committee to discuss S. 2743, which is, as 
previously stated, a bill to authorize a water rights 
settlement for the Zuni Heaven Reservation.
    The Administration supports the bill. There are some 
provisions in the bill that will probably require some further 
discussion because of the unique circumstances of this Zuni 
land. There are three reasons that this settlement unique. 
First of all, the tribal lands will be used almost exclusively 
for ceremonial and religious purposes and will not be used as a 
homeland to accommodate tribal members. Second, the water 
rights and land area involved are relatively small. Finally, 
the settlement provides a benefit by allowing additional lands 
to be taken into trust and providing the accompanying water 
rights.
    I'm not going to read my entire testimony. It has been 
submitted for the record. I would comment that there are four 
other tribal nations in the Little Colorado Basin: The Hopi 
Tribe, the Navajo Nation, the Southern Paiute Tribe, and the 
White Mountain Apache. I would also note that this particular 
land involved in this water settlement is very sacred to the 
Zunis, and it had to do with the water that was there and the 
lake that was there that has been dried up over a period of 
time. The thrust of this water settlement is to restore these 
water rights and to restore these wetlands for their religious 
purposes.
    This reservation was established by Congress in 1984 and 
was expanded in 1990. Since 1979, the water rights in the 
Little Colorado have been a subject of adjudication with the 
State of Arizona.
    I would also point out that this bill authorizes Federal 
participation in the main settlement agreement, which includes 
three subsidiary agreements with the individual parties, and 
that the settlement constitutes a final settlement of water 
rights claims with the Zuni Tribe and is designed to release 
the United States from any potential claims that might be 
asserted by the tribe relative to the agreement that is reached 
here.
    The financial partners in this settlement involve the State 
of Arizona, who is participating on the order of $6 million, 
and the Federal contribution will be about $19,250,000.
    I think that I will stop with those remarks and try to 
answer any questions that the committee might have.
    The Chairman. I thank you very much, Mr. Secretary.
    [Prepared statement of Mr. McCaleb appears in appendix.]
    The Chairman. I am certain you are aware that this is not 
the only pending settlement before us relating to Arizona 
Indian Tribes. There is one involving the water rights of 
Navajo Nation, and the Hopi Tribe. There have been some who 
have suggested that once this matter is resolved for the Zunis 
that the Government might not be too anxious to resolve the 
others. I am certain that is not the case.
    Mr. McCaleb. No, Mr. Chairman; as a matter of fact, I met 
as recently as July 2 in Albuquerque with a negotiating team 
from both the Navajo Nation and the Hopi Tribe in furtherance 
of our discussions of the settlement agreement. There was some 
discussion relative to this proposed settlement with the Zuni 
at that meeting. But we are doing everything we can to advance 
and expedite a settlement agreement with both the Navajo and 
Hopi.
    The Chairman. I would like to congratulate you for the 
expeditious manner in which you have been handling the Gila 
River Indian Community and the Tohono O'odham Nation settlement 
negotiations.
    Mr. McCaleb. Thank you very much, largely due to the very 
beneficial influence of Senator Kyl.
    The Chairman. Mr. Vice Chairman.
    Senator Campbell. Thank you, Mr. Chairman.
    You mentioned the uniqueness of this bill. I guess the 
uniqueness really is that the land base of the tribe in 
question is in one State and the settlement deals with areas in 
another State, but if you look at some of the recent history of 
Colorado tribes, Wyoming tribes, I, frankly, think these 
negotiated settlements are the way to go. Protracted litigation 
in the past between tribes and States and the Federal 
Government has been expensive and contentious and just simply 
doesn't solve the problem to the satisfaction of everybody, as 
these new ways of negotiating settlements for water goes.
    There are a few problems, I guess. You mentioned years of 
negotiations between the tribe, and your testimony indicates--
it doesn't reflect the United States position on several 
issues. Do you believe those issues can be worked out to the 
satisfaction of the parties?
    Mr. McCaleb. Yes; I do. I think there are tangential issues 
that can be resolved. I'd call them maybe more than technical, 
but they are tangential issues. There is a great deal of effort 
that has been put into this settlement effort.
    Senator Campbell. You're willing to work with the tribes 
and the States involved in that?
    Mr. McCaleb. Yes.
    Senator Campbell. Okay. Thank you.
    Senator Domenici has introduced legislation which I 
cosponsored, as well as several other members of the committee, 
entitled, ``The Federal Integrity in Indian Claims Settlement 
Act.'' It is S. 1186, if you are interested in looking at that. 
It provides a budgetary mechanism to ensure the funds will be 
there to satisfy the Federal Government's responsibilities with 
respect to negotiated settlements and disputes related to 
Indian water rights.
    Have you had a chance to look at that? I was going to ask 
if you support that measure.
    Mr. McCaleb. Senator, I have not seen the bill. I will take 
a look at it. I just jotted the number down and I will take a 
look at it immediately and respond to you on that.
    Senator Campbell. I would appreciate it if you would 
respond to the committee.
    Thank you, Mr. Chairman.
    The Chairman. I thank you very much.
    I have several questions, if I may, I would like to submit 
to you and your office. They are all technical questions 
relating to liability and waivers of rights and such, and I 
look forward to receiving your responses.
    Mr. McCaleb. We'll do it with utmost dispatch, Mr. 
Chairman.
    The Chairman. Thank you, sir.
    Now may I recognize Senator Kyl.
    Senator Kyl. Thank you, Mr. Chairman. Just two quick 
points.
    I very much appreciate your testimony and pledge to work 
with you. As a matter of fact, I know that one of the things 
that you have pointed out as a potential deficiency I think you 
are absolutely correct on and ready to make the change right 
now, so I think we'll have no trouble making modifications that 
might be called for.
    Second, I would like to reiterate, Mr. Chairman, that I am 
fully committed and everybody in the State of Arizona that has 
anything to do with these subjects is absolutely fully 
committed to, as quickly as possible, bringing to the Congress 
a Hopi/Navajo and other parties' settlement of their claims. As 
a matter of fact, we're going to be bothering you a lot. Right 
after Zuni we will have the Gila River and Tohono O'odham 
settlement, and hopefully not too long after that the Hopi/
Navajo settlement, and that will resolve almost all of the 
issues in Arizona. We just can't do everything all at once, but 
both the Hopi and Navajo leaders have my solemn commitment--and 
I know that Senator McCain feels exactly the same way--that we 
will work very hard to get their issues resolved very quickly 
and be bringing a settlement to you reflecting their views, as 
well.
    The Chairman. We are prepared to be of assistance.
    Senator Kyl. Thank you.
    The Chairman. Any further questions?
    [No response.]
    The Chairman. If not, I thank you very much, Mr. Secretary.
    Mr. McCaleb. Thank you, Mr. Chairman.
    The Chairman. Our next panel consists of the Governor of 
the Pueblo of Zuni, Zuni, NM, Malcolm B. Bowekaty, and the vice 
chairman of the Arizona Game and Fish Commission, Joe Carter.
    The Chairman. Governor, it is always good to see you, sir.
    Mr. Bowekaty. I appreciate that.

  STATEMENT OF MALCOLM B. BOWEKATY, GOVERNOR, PUEBLO OF ZUNI, 
  ZUNI, NM, ACCOMPANIED BY EDISON VICENTI, Sr., HEAD KATCHINA 
    LEADER; PABLO PADILLA, SPECIAL ASSISTANT TO ZUNI TRIBAL 
   COUNCIL; JANE MARX, ZUNI TRIBE ATTORNEY; AND OLIVER PAGE, 
                          HYDROLOGIST

    Mr. Bowekaty. Good morning. On behalf of my Zuni people I 
come here before you to present a water rights settlement that 
satisfactorily requires and meets the water needs for Zuni 
Heaven's area. It is also here for restoration project that has 
been before my tribe for over a century now. As this esteemed 
committee knows, we have seen the merits of a lot of our 
requests before this body by my former governors, as well as my 
colleagues, the tribal councils to establish the Zuni Heavens 
Reservation and also the amendments to include those areas that 
were inadvertently excluded in 1990.
    Given that, we have also been working a lot with the 
different parties--the State parties, the Federal parties, as 
well as the private ranchers and the cities of St. John, Show 
Low, and Springerville. We believe that, as the Zuni Tribe, 
that this is the best that we can do, rather than going into 
protracted litigation.
    I also have with me a delegation of our top religious 
leaders that I wish to acknowledge and beg the committee's 
indulgence to recognize two of those individuals. One of those 
is Edward Vicenti, Sr., our top religious leader. If I can beg 
the committee's indulgence, I'd like for him to say 30 seconds 
worth of statements.
    The Chairman. Please.
    Mr. Vicenti. Good morning, Mr. Chairman, Vice Chairman, and 
members of the committee. Today I greet you all with a very 
happy heart. You know, this is something that has been dear to 
me because it really directly affects me as a leader of the 
Katchina group.
    I am directly affected because this is a very sacred place 
that we make a pilgrimage to on foot, and it is a place that in 
years past, over the centuries, back when my great-great-
grandfathers were in this position, they told me about stories 
of how the place used to be like marshlands where they used to 
do their prayers, especially at night when we finally reached 
the point of our destinations. We have a prayer meeting at 
night. My great-grandparents always told me about the stories 
of how they used to do their prayers right where the springs 
used to exist, which is right now just a piece of dried land 
right now, and there was some wildlife in there like ducks and 
other frogs. When they did their prayers, it was like their 
spirits--well, they were in a spiritual form. They were being 
answered as their prayers were being recited.
    Today we get there. We have to make arrangements with a 
rancher to provide water for us so we can share the water with 
their stocks where the stocks are grazing, and we have to share 
that, and that's where we have to fetch our water because there 
is no place where we can fetch water.
    In years past, when the place still had some vegetation, 
there was a collection of seeds that we do, and also some of 
the willows that we do gather in the area. There is no longer 
existing.
    I'm very glad and happy today. My heart is happy. I'm 
pretty sure my ancestors before time also feel that way, too, 
because this is what I was told by my grandfather, who held 
this position before me--that he hoped some day maybe, if we 
are fortunate enough, that this will get restored to the place 
and condition it was at one time, with a lot of vegetation and 
wildlife, and also a place where we can officially do our 
religious thing. Right now we have to use sort of makeshift 
ponds where we have to collect our water, and also we have to 
go off-site to gather some of the sacred things that we have to 
go collect. We have to do that off-site from where we do our 
religious things.
    I am very glad today that we have come a long way, because 
I was part of the negotiation team early on as part of this 
group, to carry this ball forth. I, myself, it's very important 
to me and to our people, because it is a place that, after we, 
in this lifetime--that is a place that we all go to reside in 
spiritual form.
    I thank everybody for my opportunity.
    The Chairman. Your approval and your blessings are most 
appreciated by this committee.
    Mr. Bowekaty. As Mr. Vicenti had highlighted for us, Zuni 
Heavens and what we call Koluwala:wa is a hallowed ground, a 
sanctuary for our people. We make a lot of pilgrimages for 
that, and this settlement, negotiated settlement, has allowed 
us to judiciously as well as serendipitously allowed us to 
restore a significant portion of our original land base around 
the Zuni Heavens from willing sellers of private ranchers in 
the area, so that has been an added blessing for our tribe.
    We also look at Koluwalawa as a spiritual place for the 
genesis of our tribe for the future. Our tribe will always look 
at that. It has been a century-long struggle among other former 
governors. We have former Governor Henry Gasper back in the 
1930's that formally requested the restoration of Zuni Heavens, 
as well as the restoration of the wetlands. We also have former 
Governor Robert E. Lewis, who trailblazed a lot of ways to 
allow the tribe to secure land and resources to purchase the 
land claims area, as well as the former aboriginal areas. We 
also have former Governor Edison Laselute, who actually 
testified before this exact same committee for the successful 
passage of the Zuni Heavens Act. We also have our former 
Governor Donald Eriacho, who also maintained the fight and the 
momentum for establishing the riparian restoration program.
    The settlement actually allows the tribe to look at 
reestablishment of several critical springs within the area. 
One is called Hadinkya'a. It is the most sacred springs that we 
have.
    Our Zuni Tribe deems the entire tributary at the Little 
Colorado River, as well as the Zuni River Basin, from the 
headwaters of the Zuni Mountains, where we have the first 
formal village near the reservation, Nutria, all the way down 
to the Zuni Heavens area, as well as the waters going into the 
Grand Canyon area as a sacred area. We offer our food 
offerings, our prayers, as well as our tobacco offerings along 
the river banks in any of those areas. So, consequently, the 
confluence of the Little Colorado and the Zuni River Basin is 
the nexus for our pilgrimages. That has actually allowed us to 
secure the pilgrimage trail by getting the lands that have 
actually been offered to the tribe for purchase, since we have 
willingly taken that.
    We have also several other projects that would attempt to 
restore the wetlands. That is the reason why the bulk of the 
funds are being requested. The Zuni Tribe has invested a little 
bit over $5 million to purchase the lands, not just necessary 
for the lands but also to secure the most senior water rights 
relative to the establishment of the reservation in 1984. 
Ironically, that means that the Zuni who considered that as 
their aboriginal territory are now the junior water rights 
holders within the area. So, consequently, the settlement 
negotiation is probably the best way we can settle our water 
needs, as well as keep the rest of our neighbors whole.
    Again, the Zuni Tribal Council has been hard pressed to 
make a lot of soul-searching decisions. One is the water 
quality waivers that we have encountered. The other one is the 
taking of the lands into trust with certain sanctions.
    The Zuni Tribal Council spent a lot of time and a lot of 
hours, as well as consulted with our religious fathers to get 
the blessings, and they have made a very tough decision. 
Consequently, we are bound by their direction to approve this 
compact, and therefore we are here to present this information 
for you.
    Esteemed Senators, we have only two remaining governors in 
the history of our tribe left alive. I would like to share the 
peace and serenity that will be on their faces when we announce 
to them the successful package and the successful acceptance of 
the package to the entire Congressional process. I would love 
for this committee to recommend The Honorable Jon Kyl's 
recommendation that this committee give due passage to that.
    On behalf of our Zuni Tribe, I would like to take this last 
step to introduce the main person that has been the guiding 
force and the binding spirit between this negotiating team, 
Wilfred Eriacho, and I also have in the audience my Lieutenant 
Governor, Barton Martza. But I would like to call on Wilfred 
Eriacho to do our concluding remarks.
    I would be happy to answer any questions that the committee 
may have.
    Mr. Wilfred Eriacho.

STATEMENT OF WILFRED ERIACHO, CHAIRMAN OF THE ZUNI WATER RIGHTS 
                        NEGOTIATION TEAM

    Mr. Eriacho. [Native words.] Good morning. How are all of 
you? Senator Inouye, Senator Kyl, Senator Campbell, and the 
staff that have worked so hard with them to have this 
negotiated settlement come to fruition, [Native word], thank 
you.
    I share the happiness and joy from the heart that Brother 
Edison Vicenti expressed in his talking to you.
    My name is Wilfred Eriacho. I am the chairman of the Zuni 
Water Rights Negotiation Team. I am of the Badger Clan and 
child of the Dogwood Clan. I have both traditional and formal 
education. My Zuni tribal traditional education started from 
birth until now. My Americanized education started from seven 
years of age until now. I am an administrator with the Zuni 
Public School District in our community and have participated 
in both traditional life and the modern life of our community.
    I took on the leadership in the Zuni Water Rights 
Negotiation Team because I have personal knowledge that the 
Koluwala:wa area is the most sacred geographic area in Zuni 
Country. This is not only of modern vintage, it is a tradition 
that has been handed down to generations of Zuni people for at 
least 2,000 years. We know for a fact that the Koluwala:wa 
pilgrimage that both the governor and Mr. Vicenti referred to 
was practiced when the Spanish first came into this area on 
July 7, 1540. So this area has been extremely important to the 
Zuni people for centuries, generations of Zuni people.
    It is the geographic area where past generations of Zuni 
people have gone to live in a spiritual life. We believe that 
when I and the Zuni people that are in this audience end our 
daylight life path, Koluwala:wa area is where we are going to 
end up as spirit life forms. This is the reason why the Zuni 
people are extremely anxious to return this geographic area 
into the condition that it was when it was created in ancient 
times and designated as the homeland of the spirit life of the 
Ashuwe. I think we owe them, past generation of Zuni people who 
have passed on into the spirit life form and to the future 
generations that will assume this life form, I think we owe 
them the responsibility to get these lands back into the 
condition that they were when they were first created.
    According to the Zuni stories, Zuni knowledge, cultural 
knowledge that has been handed down to us, when that area was 
created for that purpose, the river was running swift and deep. 
There was wetland conditions all around. A sacred lake was a 
lake that was waist deep, and all the springs were active from 
the Zuni villages in New Mexico to Koluwala:wa. These springs 
are very important, because they are the conduits through which 
we communicate with the spirits that live under these springs.
    So I guess I could go on and on, but I think this is the 
information that all of us wanted to share with you. The 
governor mentioned past tribal council members. I am mentioning 
that past religious leaders--I am one of those religious 
leaders--will be most happy, you know, that this is getting 
accomplished. The present leaders that we have met with on 
several occasions are going to be extremely happy and extremely 
proud that we are going to finally see some results of our 
attempts at restoring the wetland conditions and the 
environment that would be very conducive to sustaining our 
spirit life forms in that area.
    Again, I appreciate the work that all of us did: the Zuni 
people, the committee members that served with me on this, the 
directors of the program--Dorothy Firecloud and also Joan 
Sandee. They were tireless in their efforts--the State parties, 
Senator Kyl, and everybody.
    Again, thank you very much. [Native words.]
    Mr. Bowekaty. Senator Inouye and committee, [Native words]. 
Thank you.
    [Prepared statement of Mr. Bowekaty appears in appendix.]
    The Chairman. The committee is most pleased that we were 
made part of the process to bring about happiness in the Zuni 
Tribe.
    Governor, are you finished?
    Mr. Bowekaty. Yes; I am.
    The Chairman. Mr. Carter?.

 STATEMENT OF JOE CARTER, VICE CHAIRMAN, ARIZONA GAME AND FISH 
    COMMISSION, SAFFORD, AZ, ACCOMPANIED BY JAMES ODENKIRK, 
                   ASSISTANT ATTORNEY GENERAL

    Mr. Carter. Good morning, Mr. Chairman, Mr. Vice Chairman, 
Senator Kyl from Arizona--a person I have great admiration for 
in his total commitment to all the people of Arizona. My name 
is Joe Carter. I am the vice chairman of the Arizona Game and 
Fish Commission. My written testimony has been submitted 
previously. I would ask that it be entered in the record.
    The Chairman. Without objection.
    Mr. Carter. I would like to summarize it today, If I may, 
please.
    First, I want to thank the committee for this opportunity 
to make this statement in support of this legislation. The 
Arizona Game and Fish Commission has worked tirelessly, along 
with many others represented here today, to achieve a historic 
agreement that we believe will be the foundation for the Zuni 
Indian Tribal Settlement Act of this year.
    In authorizing the settlement agreement and making an 
appropriation to carryout the provisions of the agreement, this 
legislation, in our view, builds on the success that has 
already been achieved, and in particular will allow the Game 
and Fish and the Zuni Tribe to realize their mutual beneficial 
goals of restoring an ecologically important section of the 
Little Colorado River in eastern Arizona.
    Game and Fish enthusiastically participated in the 
settlement negotiations that have led to this agreement. The 
process was an opportunity to build on our existing efforts and 
relationships in the region to restore and maintain riparian 
habitat that are of critical importance to wildlife and fish.
    Game and Fish and the Zuni Tribe have worked cooperatively, 
shared resources to improve the conditions of a large portion 
of the river. For over 10 years the Arizona Game and Fish has 
been active in acquiring riparian habitats and water rights 
within the Little Colorado River drainage. Our objective has 
been to use these water rights to protect minimum flows in the 
river, to encourage the reestablishment of native vegetation, 
and to return the channel, along with eroded banks, to a more 
natural condition, all with the eventual goals of protecting 
sensitive wildlife species.
    We have found that diverse populations of wildlife have 
come back to these areas of the river because the flows have 
become more predictable.
    It is our hope that these efforts will eventually lead to a 
recovery of listing of native fishes that historically were 
found throughout the Little Colorado River watershed. It is our 
opinion that the recovery of these species depends upon 
restoring additional portions of the river to help increase 
perennial flows and to restore the natural hydrograph.
    The Settlement Act will provided a needed support toward 
this effort. It will authorize significant funding for the 
tribe to accomplish similar restoration projects on this 
property. The funding will be used for the Zuni Tribe to 
redevelop and maintain wetlands, conditions that previously 
existed within its natural Zuni Heaven Reservation. The Zuni 
restoration project at its sacred lake will include rebuilding 
the channel of the Little Colorado River, enhancing river 
flows, and reintroducing native wildlife and plant species 
which are essential to the tribe's religious and sustenance 
activities.
    Game and Fish looks forward to a cooperative relationship 
with the tribe and assisting the tribe in its endeavor.
    Under the settlement agreement, Arizona Game and Fish 
agrees as part of its continuing stream rehabilitation project 
to an expend over $6 million over the next 15 years and to 
acquire additional land and water rights with the express 
commitment to transfer as much as 1,000 acre feet of water to 
the Zuni Tribe for its wetland restoration project.
    Game and Fish will also work cooperatively and share 
information so that the Zuni Tribe can be assured that any 
proposed acquisition that Game and Fish makes under the 
settlement agreement will likely result in excess water that 
can be used at the Zuni's wetland project, and that the water 
quality in the Little Colorado River remains in the acceptable 
standard.
    Our anticipated funding source for the settlement agreement 
is the Arizona Heritage Fund, which is a dedicated source of 
money that is administered by the Arizona Game and Fish and is 
used for property acquisition and projects that are intended to 
benefit sensitive wildlife and their habitats.
    In addition to the conservation agreements, Game and Fish 
will receive some measure of security in settling claims 
adversely affecting Game and Fish water rights. The parties 
have agreed under the agreement not to object to current 
attributes of the Game and Fish water rights, which includes 
rights in various recreational lakes in the region. This is 
important for many people to enjoy sports fishing in Arizona's 
White Mountains and for the local economies to benefit from the 
increasing number of recreationists.
    The passage of this legislation, in our view, is important 
to the Arizona Game and Fish. We believe it is the catalyst 
that is necessary to allow the important work within the 
settlement agreement to proceed. Mr. Chairman, we believe that 
it represents the common goals to preserve our collective 
traditions, our values, and our heritages, and for this I urge 
passage of this legislation.
    Again, Mr. Chairman, I want to thank Senator Kyl for his 
hard work in this endeavor and your committee members.
    We would be happy to answer any questions you may have.
    The Chairman. I thank you very much, Mr. Carter.
    [Pepared statement of Mr. Carter appears in appendix.]
    The Chairman. Right now we have a vote pending, so if I may 
I would like to call a recess for ten minutes.
    [Recess.]
    The Chairman. May we resume the hearings.
    I have a question for the governor. Section 8C of the 
agreement states as follows:

    The Zuni Tribe shall not unreasonably withhold consent for 
easements and rights-of-way for roads, utilities, and other 
necessary accommodations for adjoining landowners across the 
lands unless such easements and rights-of-way will cause 
significant and substantial harm to the tribe's wetland 
restoration project or religious practices.

    Can you tell us what sort of circumstances could the tribe 
or would the tribe reasonably decline to grant such easements 
and rights-of-way?
    Mr. Bowekaty. I'll use a couple of examples that actually 
highlight why we are very amenable to that.
    On our current existing reservation in New Mexico, there is 
a private non-Indian person from the community of Raima. His 
land borders our reservation, and on the north, the east, and 
the south side of his property he has about a 200-foot-high 
mesa. The only way he can access his property is either 
building a road, maybe borrow the tramway from Albuquerque, or 
build a tunnel. The Zuni Tribe has given his access to his 
property through our reservation land. He has a 50-year-and-
renewable lease up to 99 years of access and egress along our 
reservation side for at least 50 years, as well as up to 99 
years, so he actually has used that for over five years now, 
and he has been a good neighbor. We have had no problems.
    A similar situation exists on some property that has been 
purchased on the south side of our current reservation. The 
property is called ``Mazone Ranch.'' We have been working very 
closely with the New Mexico State Game and Fish Department, as 
well as our tribe, as well as our game and fish officers, where 
we jointly work whenever there's--there are a couple of 
sections of State grazing lands, as well as State leased lands, 
that border some of our checkerboard area. We work very 
closely. There is a country road that bisects that portion of 
the reservation. We direct all State-licensed hunters to the 
proper locations and vice versa. The State Game and Fish direct 
our tribal members to the proper sections of the tribe. We have 
that relationship.
    In this situation, that is a fair and equitable situation 
with the lands that we already have in the Zuni Heavens area, 
the State lands that have been purchased.
    We also currently lease some of those properties to the 
non-Indian ranchers in that area. We have been leasing those 
properties out for over 3 years now. We have had no problem. As 
most of the next panel will attest, we have a very good 
relationship. Consequently, I don't anticipate any situation 
where there is a right-of-way or an easement that will harm our 
neighbors or let alone the neighbors will harm us.
    The Chairman. Thank you very much.
    Mr. Carter, this bill waives sovereign immunity as far as 
the Federal Government and the tribe is concerned, but as a 
result of the Supreme Court decision in the Seminole case, 
waive the sovereign immunity of the States. In this case, the 
State has not waived sovereign immunity.
    My question is: What remedies are available to the tribe if 
the tribe feels that it needs to enforce its rights against the 
State? And in what forum could it bring suit to enforce its 
rights?
    Mr. Carter. Mr. Chairman, with your indulgence, I would 
like to refer that question to James Odenkirk, who is with me. 
He is the assistant attorney general that represents the Game 
and Fish Commission.
    The Chairman. All right.
    Mr. Carter. Thank you, sir.
    Mr. Odenkirk. Thank you, Senator. My name is Jim Odenkirk. 
I am an assistant attorney general with the State of Arizona. I 
represent the Game and Fish Commission.
    My view is that, under the settlement agreement, the tribe 
would have access to State courts to resolve conflicts 
resulting from some issue arising from the settlement 
agreement.
    The Seminole case I am familiar with, and I believe that 
refers to sovereign immunity in suits in Federal court. Most of 
the issues that would arise would be involving water right 
issues, and the State court would have primary jurisdiction 
over those matters.
    The Chairman. And the State courts are available to the 
tribe?
    Mr. Odenkirk. Certainly.
    The Chairman. I thank you very much, sir.
    Do you have any questions?
    Senator Campbell. Thank you, Mr. Chairman.
    I had the opportunity to walk over to vote with Senator 
Kyl, and I can tell you those who know him know he does not get 
involved with a bill unless he researches it completely and 
really knows the insides and outsides of a bill.
    I had some questions dealing with priority water rights and 
restoration of the ground vegetation and so on, but he answered 
them completely for me, so maybe just only let me make a short 
comment on this business of easements and rights-of-way.
    I certainly understand the tribe's concern when it comes to 
an area that is a religious area. I was thinking, when the 
governor was talking, about a mountain in South Dakota that is 
used for spiritual purposes by a number of Northern Plains 
tribes. It is called ``Bear Butte.'' One-half of that mountain 
is actually owned by the Cheyenne Tribe. The other one-half is 
owned by the State of South Dakota. There is a State visitors' 
center on their one-half of the mountain.
    It is not uncommon, when Indians are there on the Indian 
side praying, for people with binoculars and cameras and 
actually leading tour groups to the other side so they can 
watch the Indians praying. I mean, that's almost sacrilegious. 
How would you like, if you were a Catholic or a protestant, to 
have somebody come in while you're praying and take pictures of 
you in church or record what you're saying when you're making 
your prayers?
    That's what Indians actually face sometimes, Mr. Chairman. 
I know that there's a very big concern on the part of many 
tribal people, particularly spiritual leaders, about who is 
going to be on there and under what conditions, particularly 
when they are trying to do ceremonies.
    Thank you. I have no questions.
    Thank you for appearing, Governor.
    The Chairman. Thank you very much.
    Just for clarification, may I ask the deputy attorney 
general more specifically: As you know, there is no reciprocal 
provision that waives the sovereign immunity of the State of 
Arizona. The tribes' immunity is waived and the Federal 
Government's immunity is waived to allow the tribe to enforce 
its rights.
    Now, by your statement this morning, are you saying that 
the State of Arizona is waiving its sovereign immunity to 
permit to tribe to enforce its rights in court?
    Mr. Odenkirk. Mr. Senator, I am certainly not in a position 
to state that the State of Arizona has waived its sovereign 
immunity. There are certainly occasions where the State has 
waived its sovereign immunity to allow suit in State and 
Federal court, but only the State legislature would be 
authorized to waive sovereign immunity in a manner further than 
what has already occurred.
    The Chairman. When can the tribe sue the State, under what 
circumstances?
    Mr. Odenkirk. Senator, there would be a number of 
situations where the tribe could sue a State, especially if it 
was under a Federal law that Congress has expressly provided 
for the State's waiver of sovereign immunity, or in State court 
could certainly enforce provisions of the settlement agreement. 
The State has waived its sovereign immunity to jurisdiction 
under State court.
    The Chairman. Well, under section 8(a)(1), the sovereign 
immunity of the United States and the tribe are waived, but not 
the State of Arizona, and so, under your interpretation, the 
State has not waived its sovereign immunity under this 
settlement, or has it?
    Mr. Odenkirk. Senator, I don't believe the State has waived 
its sovereign immunity. The parties have not been able--the 
parties are not in a position. The State agency parties are not 
in a position to waive sovereign immunity without authorization 
of the State legislature, just as the agencies of the United 
States would not be in a position to waive sovereign immunity 
without the authority of Congress.
    The Chairman. So if the Zuni Tribe wants to sue the State 
of Arizona under the provisions of the agreement, it will have 
to go to the legislature to get approval first?
    Mr. Odenkirk. Senator, I believe if they wanted to sue in 
Federal court they would need to do so, but there is State 
court available for them to enforce the terms of the settlement 
agreement.
    This is an issue that I would need to look at and further 
review, but I don't believe that the parties to the settlement 
agreement have the authority to waive sovereign immunity as to 
suit in Federal court.
    The Chairman. Is the Zuni Tribe concerned about this 
provision?
    Mr. Bowekaty. We have thought long and hard, and I'm going 
to defer to my attorney, Jane Marx, for the technical issues, 
but we have looked at the implications and the potential 
liabilities in situations where we may need to look at that.
    Ms. Marx. Thank you, Mr. Chairman.
    The State of Arizona has no immunity from suit for 
enforcement of contracts. That's State law as I understand it 
from the early 1960's that has made that point clear. We're not 
concerned.
    The Chairman. Thank you very much.
    Do you have any further questions?
    Senator Campbell. No further questions, Mr. Chairman.
    The Chairman. I thank the panel very much.
    Mr. Bowekaty. Thank you.
    The Chairman. now may I call upon Norman Ray Brown of Lyman 
Water Company of St. Johns, Arizona, accompanied by David Brown 
of Brown and Brown Law Offices of Arizona; David Roberts, 
manager, water rights and contracts, Salt River Project of 
Phoenix, accompanied by John Weldon, Jr. of Salmon, Lewis and 
Weldon of Phoenix, AZ.
    Mr. Brown.

STATEMENT OF NORMAN RAY BROWN, LYMAN WATER COMPANY, ST. JOHNS, 
 AZ, ACCOMPANIED BY DAVID BROWN, BROWN AND BROWN LAW OFFICES, 
                          PINETOP, AZ

    Mr. Norman Brown. Thank you, Mr. Chairman, Mr. Vice 
Chairman, and Senator Kyl. I appreciate being able to be here 
today. I am Norman Brown. I live in St. Johns, which is in 
Apache County in Arizona. I'm a member and represent the board 
of directors of the Lyman Water Company, which is one of the 
largest water users on the river there. I have lived there and 
am doing a fairly good job of attempting to provide for my 
family with seven children. My wife, Karen--I'm a fifth 
generation farmer/rancher there. We have an alfalfa farm to 
help us provide feed for our cattle operation.
    With me today is my brother, David, who is an attorney with 
the law firm of Brown and Brown. He is also a supervisor on the 
Apache County Board of Supervisors.
    A portion of our cattle ranch is located adjacent to the 
Zuni Heaven portion of the reservation in Arizona there, and 
for many years we have been neighbors with that property there, 
and I have never had any problems with the previous owners or 
the current owners, the Zuni Tribe.
    As my responsibilities as a member of the board of 
directors, we have for several years now been negotiating under 
this situation, and, because we control a large area in the St. 
Johns area, approximately 2,500 acres of farm when we have 
sufficient water--as everybody knows, the last several years we 
have had a dearth of that water. I represent approximately 200 
shareholders that use the water in our little valley there.
    In the late 1800's, early settlers started using the water 
for the farms in the St. Johns area and also in Eager and 
Springerville, and developed those farms. In the early 1900's 
we had an adjudication process that resulted in the Norvell 
Decree.
    I'm just making a few brief comments from the written 
comments, and I request that the committee receive my written 
testimony that I submitted earlier.
    The Norvell Decree spells out who has water rights up and 
down the river since the late 1800's. At that time the decree 
did not include or address any claims to water rights by the 
Zuni Tribe; therefore, we have been in settlement negotiations 
with the tribe during the last several years.
    I am here today to tell the committee that Lyman Water 
Company and also the small towns of St. Johns and Springerville 
and Eager, who are upstream from St. Johns, endorse the 
proposed settlement and agree that in this situation it would 
be the best.
    I believe personally that the Lyman Water Company--on 
behalf of Lyman Water Company, this settlement is good for the 
whole situation because it recognizes the Norvell Decree, still 
recognizes the water rights we have there, helps us settle as 
neighbors and, on another hand, for our small company there it 
helps to maybe quit paying the attorneys that are involved.
    Lyman Water Company controls Lyman Lake, and we have agreed 
to use that resource to help control water flows for all the 
parties involved.
    I would like to thank the committee for the work that they 
have been doing in hearing this bill. I appreciate Senator Kyl 
and all the leadership he has shown in bringing this to this 
point.
    One of the last requests I have is, if the committee has 
any authority, we need more rain in the whole area. [Laughter.]
    That would help solve a lot of things.
    That's all I have today. Thank you.
    The Chairman. I thank you very much, Mr. Brown.
    [Prepared statement of Mr. Norman Brown appears in 
appendix.]
    The Chairman. Mr. Roberts.

     STATEMENT OF DAVID ROBERTS, MANAGER, WATER RIGHTS AND 
CONTRACTS, SALT RIVER PROJECT, PHOENIX, AZ, ACCOMPANIED BY JOHN 
     B. WELDON, Jr., SALMON, LEWIS AND WELDON, PHOENIX, AZ

    Mr. Roberts. Thank you, Mr. Chairman and Mr. Vice Chairman 
Campbell, members of the committee, as well as Senator Kyl--and 
I appreciate Senator Kyl very much in his, as you mentioned 
earlier, ability to work with these Indian water rights 
settlements. He has had a lot of experience. He really works on 
them well with us, and we really appreciate the opportunity to 
work with Senator Kyl on this particular settlement.
    I am the manager of the Water Rights and Contracts 
Department at Salt River Projects. I am here to present 
testimony in support of this legislation. I have submitted 
written testimony, and I would just like to highlight some of 
the major parts of that testimony that I provided for the 
record.
    The Chairman. Your full statement is part of the record 
now.
    Mr. Roberts. Thank you.
    SRP is a large, multi-purpose reclamation project 
authorized pursuant to the Reclamation Act and constructed in 
central Arizona. Pursuant to various contracts with the United 
States and the Reclamation Act, SRP operates six large storage 
reservoirs in central Arizona and is the largest water supplier 
in the Phoenix metropolitan area.
    SRP also operates several large power plants throughout 
Arizona and distributes electricity from those power plants to 
more than three-quarters of a million customers in central 
Arizona.
    You have heard quite a bit of testimony this morning about 
the history of the Zuni Indian Reservation. You've also heard 
testimony about the many benefits the settlement agreement will 
provide the Zuni Tribe, the State of Arizona, the cities and 
towns in the Upper Little Colorado River Basin, as well as the 
irrigators from the Little Colorado River Basin.
    This morning I would like to just highlight a few of the 
important parts of the settlement that we think are critical in 
settling this claim, the claim by the Zuni Indian Tribe.
    First, SRP's interest in the settlement, why the settlement 
is important to SRP; second, a short history regarding what led 
to the negotiations of the water rights claim by the Zuni 
Tribe; and, third, the importance of this settlement with 
respect to the settling parties, including the United States.
    As I mentioned earlier, one of the major responsibilities 
of SRP is to produce and distribute electricity in central 
Arizona. SRP has a significant interest in the water issues in 
the Upper Little Colorado River Basin because one of the power 
plants owned and operated by SRP is the Coronado Generating 
Station located near St. Johns about 15 miles upstream from the 
Zuni Indian Reservation.
    About 20 percent of the power generation owned by SRP comes 
from CGS. CGS was constructed in the mid 1970's and employs 
about 20 percent of the workforce in the area. Water for CGS is 
supplied by two well fields located near the plant, and SRP has 
pumped about 10,500 acre feet each year to supply the Coronado 
Generating Station.
    With respect to how the settlement negotiations began, as 
you heard earlier, the Zuni Heaven Reservation is a fairly new 
reservation, having been created by Congress in 1984. For many 
years, this was not much of a concern to the area water users 
because most of the current uses of groundwater and surface 
water from the Little Colorado, including SRP's use of 
groundwater for CGS, predated Congress' creation of the Zuni 
Heaven Reservation and arguably would have priority over the 
tribe's use of water in times of shortage.
    However, the arguable seniority of these upstream water 
rights to those of the Zuni Tribe was called into question in 
1994 when the Justice Department asserted a claim in the Little 
Colorado River adjudication based on the tribe's use of water 
since time immemorial. This filing brought into focus a 
potential conflict between the tribe's water uses on the 
reservation as well as those of the surrounding communities.
    In 1997, representatives of the tribe, the United States, 
SRP, and other local parties began negotiating a settlement of 
the tribe's claims.
    Last, with respect to the importance of this settlement, as 
with the other Arizona Indian water rights settlements that 
have been submitted to and approved by Congress, there are 
three important characteristics of this settlement that warrant 
its approval.
    First and foremost, the settlement resolves all outstanding 
water-related litigation between the Zuni Tribe and the other 
settling parties and settles once and for all the water rights 
of the tribe to surface water and groundwater in the Little 
Colorado River Basin in Arizona.
    Second, the settlement provides the tribe with essential 
resources to restore and maintain the religiously significant 
riparian areas on its reservation. SRP will participate in that 
restoration process by providing the tribe with $1 million to 
be used toward developing a water supply to restore the tribe's 
sacred lake.
    Third, the settlement provides certainty for the water 
users and the tribe with respect to current and future water 
uses in the basin. The settlement permits the continuation of 
existing surface water and groundwater uses in the basin. This 
is critical to the local economy of the Upper Little Colorado 
River area.
    Additionally, as part of the settlement SRP and the tribe 
will enter into a separate supplemental agreement that will 
address the terms and conditions that apply to future pumping 
by SRP and the tribe. Under this agreement, SRP has agreed to 
refrain from drilling new wells or replacement wells within a 
specific area between the reservation and the existing well 
fields utilized by CGS in order to minimize the effects of 
SRP's wells on water supplies for the reservation. The tribe 
has also agreed to restrict its pumping of groundwater in an 
area surrounding SRP's well fields in order to minimize impacts 
on water supplies for CGS.
    SRP will also undertake a groundwater quality monitoring 
program in an effort to identify future water quality changes 
in the area near the Zuni Heaven Reservation lands.
    In conclusion, the Zuni Indian Tribe and the other parties 
to this settlement have worked diligently and will continue to 
do so to achieve the numerous compromises and contributions 
necessary for settlement of the tribe's water rights claims. 
The legislation before the committee embodies the hard work of 
those parties to achieve a result that is beneficial to both 
the tribe and the local water users, enabling them to use the 
scarce resource cooperatively with consideration for the needs 
of both sides.
    SRP and the other settlement parties urge this committee to 
bring the settlement one step closer to completion by approving 
S. 2743.
    Thank you for your time. I would be happy to answer any 
questions.
    The Chairman. I thank you very much, Mr. Roberts.
    [Prepared statement of Mr. Roberts appears in appendix.]
    The Chairman. If I may ask a question of Mr. Brown, section 
9 of the bill states that certain agreements among the parties 
shall become null and void if certain prerequisites are not met 
by December 31, 2005. Among these prerequisites is the tribe's 
ability to purchase certain surface water rights and the 
severance and transfer of those water rights. Do you foresee 
that the tribe may have some difficulty in complying with these 
conditions?
    Mr. Norman Brown. I see that the tribe could very easily 
purchase some of those water rights up and down the river. It 
is a long way up and down there. It has been not feasible for 
them to try to acquire those rights up until now since they 
haven't had the resources to do so or the agreement to transfer 
those rights.
    The Chairman. So you see no problems now?
    Mr. Norman Brown. No.
    The Chairman. Thank you. And, for Mr. Roberts, is your 
organization committed to move forward expeditiously to reach 
similar settlements addressing the water rights of other tribes 
in Arizona?
    Mr. Roberts. Yes, Mr. Chairman; we very much are. We have 
been involved in a number of settlements in Arizona, currently 
working on several right now, and certainly will work 
diligently towards that.
    The Chairman. I want to commend both of your organizations 
for the expeditious manner in which you have resolved the Zuni 
water rights case. We look forward to further legislation to 
bring about settlements for other tribes.
    Mr. Vice Chairman.
    Senator Campbell. Mr. Chairman, I have no questions. They 
all seem to support the bill, so I don't have to light into 
anybody. I'm just very happy they do.
    Let me just tell Mr. Brown how much I admire your raising 
seven children on a ranch. We have a small ranch in Colorado. 
We only had to feed two, and we still had to have outside jobs, 
which meant I was either a bad rancher or they ate too much. 
[Laughter.]
    Congratulations.
    Mr. Norman Brown. Thank you.
    Senator Campbell. Thank you, Mr. Chairman.
    The Chairman. Senator Kyl.
    Senator Kyl. Mr. Chairman, I just thank you very much for 
holding this hearing. I thank the witnesses. They have worked 
very, very hard. They have done all the work. They have 
expressed appreciation to me, but, frankly, they are the ones 
who have done the hard work. It just demonstrates what happens 
when everybody has a desire to sit down and resolve their 
differences and stop paying lawyers, so in that regard this is 
a very successful conclusion. [Laughter.]
    The Chairman. That is why they call you a miracle worker, 
don't they.
    With that, and with the gratitude of this committee, the 
hearing is adjourned.
    Mr. Norman Brown. Thank you.
    Mr. Roberts. Thank you.
    [Whereupon, at 11:35 a.m., the committee proceeded to 
further business.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


     Prepared Statement of Hon. Jon Kyl, U.S. Senator from Arizona

    Mr. President, on behalf of Senator McCain and myself I am 
introducing legislation today that would codify the settlement of the 
Zuni Indian Tribe's water rights for its religious lands in 
northeastern Arizona. Congress first recognized the importance of these 
lands in 1984 when it created the Zuni Heaven Reservation (Pub. L. No. 
98-498, as amended by Pub. L. No. 101-486 (1990)). The small 
communities upstream from this Reservation have been fully 
appropriated--they have had more would-be water users than water--for 
nearly a century. The prospect of dividing this limited water with yet 
another user created great uncertainty. To resolve that uncertainty and 
to avoid expensive and protracted litigation, the Zuni Tribe, the 
United States on behalf of the Zuni Tribe, the State of Arizona 
(including the Arizona Game and Fish Commission, the Arizona State Land 
Department, and the Arizona State Parks Board) and the major water 
users in this area of Arizona negotiated for many years to produce a 
settlement that is acceptable to all parties.
    This bill would provide the Zuni Tribe with the resources and 
protections necessary to acquire water rights from willing sellers and 
to restore and protect the wetland environment that previously existed 
on the Reservation. In return, the Zuni Tribe would waive its claims in 
the Little Colorado River Adjudication. In addition, the Zuni Tribe 
would, among other things, grandfather existing water uses and waive 
claims against many future water uses in the Little Colorado River 
basin. In summary, with this bill, the Zuni Tribe can achieve its needs 
for the Zuni Heaven Reservation while avoiding a disruption to local 
water users and industry. Furthermore, the United States can avoid 
litigating water rights and damage claims and satisfy its trust 
responsibilities to the Tribe regarding water for the Reservation. The 
parties have worked many years to reach consensus and I believe this 
bill would produce a fair result to all.
[GRAPHIC] [TIFF OMITTED] 81230.001

[GRAPHIC] [TIFF OMITTED] 81230.002

[GRAPHIC] [TIFF OMITTED] 81230.003

[GRAPHIC] [TIFF OMITTED] 81230.004

[GRAPHIC] [TIFF OMITTED] 81230.005

[GRAPHIC] [TIFF OMITTED] 81230.006

[GRAPHIC] [TIFF OMITTED] 81230.007

[GRAPHIC] [TIFF OMITTED] 81230.008

[GRAPHIC] [TIFF OMITTED] 81230.009

[GRAPHIC] [TIFF OMITTED] 81230.010

[GRAPHIC] [TIFF OMITTED] 81230.011

[GRAPHIC] [TIFF OMITTED] 81230.012

[GRAPHIC] [TIFF OMITTED] 81230.013

[GRAPHIC] [TIFF OMITTED] 81230.014

[GRAPHIC] [TIFF OMITTED] 81230.015

[GRAPHIC] [TIFF OMITTED] 81230.016

[GRAPHIC] [TIFF OMITTED] 81230.017

[GRAPHIC] [TIFF OMITTED] 81230.018

[GRAPHIC] [TIFF OMITTED] 81230.019

[GRAPHIC] [TIFF OMITTED] 81230.020

[GRAPHIC] [TIFF OMITTED] 81230.021

[GRAPHIC] [TIFF OMITTED] 81230.022

[GRAPHIC] [TIFF OMITTED] 81230.023

[GRAPHIC] [TIFF OMITTED] 81230.024

[GRAPHIC] [TIFF OMITTED] 81230.025

[GRAPHIC] [TIFF OMITTED] 81230.026

[GRAPHIC] [TIFF OMITTED] 81230.027

[GRAPHIC] [TIFF OMITTED] 81230.028

[GRAPHIC] [TIFF OMITTED] 81230.029

[GRAPHIC] [TIFF OMITTED] 81230.030

[GRAPHIC] [TIFF OMITTED] 81230.031

[GRAPHIC] [TIFF OMITTED] 81230.032

[GRAPHIC] [TIFF OMITTED] 81230.033

[GRAPHIC] [TIFF OMITTED] 81230.034

[GRAPHIC] [TIFF OMITTED] 81230.035

[GRAPHIC] [TIFF OMITTED] 81230.036

[GRAPHIC] [TIFF OMITTED] 81230.037

[GRAPHIC] [TIFF OMITTED] 81230.038

[GRAPHIC] [TIFF OMITTED] 81230.039

[GRAPHIC] [TIFF OMITTED] 81230.040

[GRAPHIC] [TIFF OMITTED] 81230.041

[GRAPHIC] [TIFF OMITTED] 81230.042

[GRAPHIC] [TIFF OMITTED] 81230.043

[GRAPHIC] [TIFF OMITTED] 81230.044

[GRAPHIC] [TIFF OMITTED] 81230.045

                               <greek-d>

</pre></body></html>
